MARCH 28, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




    INADEQUATE SECURITY PRACTICES EXPOSE KEY
         NASA NETWORK TO CYBER ATTACK




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-017 (ASSIGNMENT NO. A-10-011-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FTP          File Transfer Protocol
IP           Internet Protocol
IT           Information Technology
JPL          Jet Propulsion Laboratory
OA           Office of Audits
OIG          Office of Inspector General
VPN          Virtual Private Network


                                           REPORT NO. NO. IG-11-017
MARCH 28, 2011




                                                                                   OVERVIEW

         INADEQUATE SECURITY PRACTICES EXPOSE KEY NASA
                   NETWORK TO CYBER ATTACK

                                                                                     The Issue

  NASA relies on a series of computer networks to carry out its various missions, including
  controlling spacecraft like the International Space Station and conducting science
  missions like the Hubble Telescope. Therefore, it is imperative that NASA protect its
  computer networks from cyber attacks that could disrupt operations or result in the loss of
  sensitive data. In this audit, we evaluated whether NASA protected information
  technology (IT) assets on its Agency-wide mission computer network from Internet-based
  cyber attacks. Specifically, we assessed whether NASA adequately protected these IT
  assets from Internet-based attacks by regularly assessing risks and identifying and
  mitigating vulnerabilities. We also reviewed internal controls as appropriate. Details of
  the audit’s scope and methodology are in Appendix A.

                                                                                        Results

  We found that computer servers on NASA’s Agency-wide mission network had high-risk
  vulnerabilities that were exploitable from the Internet. Specifically, six computer servers
  associated with IT assets that control spacecraft and contain critical data had
  vulnerabilities that would allow a remote attacker to take control of or render them
  unavailable. Moreover, once inside the Agency-wide mission network, the attacker could
  use the compromised computers to exploit other weaknesses we identified, a situation
  that could severely degrade or cripple NASA’s operations. We also found network servers
  that revealed encryption keys, encrypted passwords, and user account information to
  potential attackers. These data are sensitive and provide attackers additional ways to gain
  unauthorized access to NASA networks. These deficiencies occurred because NASA had
  not fully assessed and mitigated risks to its Agency-wide mission network and was slow
  to assign responsibility for IT security oversight to ensure the network was adequately
  protected. In a May 2010 audit report, we recommended that NASA immediately
  establish an IT security oversight program for this key network. 1 However, even though
  the Agency concurred with the recommendation it remained unimplemented as of
  February 2011. Until NASA addresses these critical deficiencies and improves its IT


  1
      NASA OIG, “Review of the Information Technology Security of [a NASA Computer Network]”
      (IG-10-013, May 13, 2010).



REPORT NO. IG-11-017
                                                                                        OVERVIEW



     security practices, the Agency is vulnerable to computer incidents that could have a
     severe to catastrophic effect on Agency assets, operations, and personnel.

     Management Action

     In order to strengthen the Agency’s IT security program, we urge NASA to expedite
     implementation of our May 2010 recommendation to establish an IT security oversight
     program for NASA’s Agency-wide mission network. We also recommend that NASA
     Mission Directorates (1) immediately identify Internet-accessible computers on their
     mission networks and take prompt action to mitigate identified risks and (2) continuously
     monitor Agency mission networks for Internet-accessible computers and take prompt
     action to mitigate identified risks. Finally, to help ensure that all threats and
     vulnerabilities to NASA’s IT assets are identified and promptly addressed, we recommend
     that NASA’s Chief Information Officer, in conjunction with the Mission Directorates,
     conduct an Agency-wide IT security risk assessment.

     In response to a draft of this report, the Chief Information Officer and Mission
     Directorates concurred with our recommendations. The Chief Information Officer stated
     that she will work with the Mission Directorates and Centers to develop a comprehensive
     approach to ensure that Internet-accessible computers on NASA’s mission networks are
     routinely identified, vulnerabilities are continually evaluated, and risks are promptly
     mitigated by September 30, 2011. In addition, the Chief Information Officer said she will
     develop and implement a strategy for conducting an Agency-wide risk assessment by
     August 31, 2011. The full text of NASA’s comments can be found in Appendix B.

     We consider the Chief Information Officer’s proposed actions to be responsive to our
     recommendations. Therefore, the recommendations are resolved and will be closed upon
     verification that management has completed the corrective actions.




ii                                                                         REPORT NO. IG-11-017
MARCH 28, 2011




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

   RESULTS
      NASA Did Not Adequately Assess and Mitigate Risks to
        Its Agency-Wide Mission Computer Network ______________ 3

   APPENDIX A
      Scope and Methodology ________________________________ 9
      Review of Internal Controls ____________________________ 10
      Prior Coverage ______________________________________ 10

   APPENDIX B
      Management Comments ______________________________ 12

   APPENDIX C
      Report Distribution ___________________________________ 16




REPORT NO. IG-11-017
MARCH 28, 2011




                                                                                       INTRODUCTION


Background

  The threat to NASA’s computer networks from Internet-based intrusions is tangible and
  expanding in both scope and frequency. For example, in May 2009 NASA notified the
  Office of Inspector General (OIG) of a suspicious computer connection from a system
  that supports Agency space operations and space exploration activities. The subsequent
  OIG investigation confirmed that cybercriminals had infected a computer system that
  supports one of NASA’s mission networks. Due to the inadequate security configurations
  on the system, the infection caused the computer system to make over 3,000 unauthorized
  connections to domestic and international Internet protocol (IP) addresses including
  addresses in China, the Netherlands, Saudi Arabia, and Estonia. 2 In another cyber attack
  in January 2009, cybercriminals stole 22 gigabytes of export-restricted data from a Jet
  Propulsion Laboratory (JPL) computer system. The sophistication of both of these
  Internet-based intrusions confirms that they were focused and sustained efforts to target
  assets on NASA’s mission computer networks.

  NASA’s Agency-wide mission network is widely distributed throughout the United
  States and hosts more than 190 IT systems and projects run by the Agency’s Mission
  Directorates and JPL. Included in these 190 IT assets are computer systems and projects
  that control the Hubble Space Telescope, the Space Shuttle, the International Space
  Station, the Cassini and Lunar Reconnaissance orbiters, and several ground stations and
  mission control centers. These IT systems and projects, categorized as moderate- and
  high-impact, control spacecraft, collect and process scientific data, and perform other
  critical Agency functions. 3 Consequently, a security breach of one of these systems or
  projects could have a severe to catastrophic adverse effect on NASA operations, assets, or
  personnel.

  In order to communicate and share information with external parties, NASA’s Agency-
  wide mission network is connected to the Internet. NASA uses firewall technology to
  control access to the network. A firewall is a set of IT resources that separate and protect
  computer systems and data on an organization’s internal networks from unauthorized

  2
      An IP address is a unique numerical label assigned to each device (such as a computer or printer)
      connected to a network that uses the Internet protocol to communicate. An information technology
      system is a discrete set of information resources organized for the collection, processing, maintenance,
      use, sharing, dissemination, or disposition of information.
  3
      In a moderate-impact system, the loss of confidentiality, integrity, or availability could be expected to
      have a serious adverse effect on organizational operations, organizational assets, or individuals. In a
      high-impact system, such a loss could be expected to have a severe or catastrophic adverse effect.



REPORT NO. IG-11-017                                                                                              1
                                                                                   INTRODUCTION



    access from an external network, such as the Internet. Specifically, firewalls inspect
    incoming network traffic and permit or deny requests for access according to an
    organization’s security policy.

    Firewalls are only as effective as the rules that security personnel define for them. For
    example, firewall rules that allow unrestricted access from the Internet to computers on
    an organization’s internal networks are pathways attackers can use to identify and exploit
    vulnerabilities on these networks. Accordingly, as part of an enterprise-wide IT security
    risk assessment, organizations should identify and prioritize the mitigation of
    vulnerabilities that can be exploited from the Internet. This is especially important when
    these vulnerabilities are associated with moderate- or high-impact systems because a
    system breach could severely degrade or even cripple an organization’s ability to operate.
    Typically, organizations assess their network security posture from within the confines of
    their own organizational networks and therefore do not always identify computers that are
    exploitable from the Internet. Computer hackers, however, assess and evaluate potential
    targets from the outside. Thus, computers that are accessible from the Internet are prime
    targets for exploitation and are highly sought after by hackers.


Objectives

    We reviewed the firewalls and related computer networking devices that control the flow
    of network traffic between the Internet and systems on NASA’s Agency-wide mission
    network to determine whether they are effectively configured to protect NASA IT
    resources from Internet-based threats. We also reviewed internal controls as appropriate.
    See Appendix A for details of the audit’s scope and methodology.




2                                                                          REPORT NO. IG-11-017
RESULTS




                                   NASA DID NOT ADEQUATELY ASSESS AND
                                     MITIGATE RISKS TO ITS AGENCY-WIDE
                                            MISSION COMPUTER NETWORK

            We performed vulnerability tests on computer servers connected to NASA’s Agency-
            wide mission computer network and found six servers that were exploitable from the
            Internet. These servers were associated with IT projects that control spacecraft or
            contain critical NASA data. In addition to servers with high-risk vulnerabilities, we
            also found servers that exposed encryption keys, encrypted passwords, and user
            account information. These data are sensitive and provide attackers additional ways
            to gain unauthorized access to NASA computer networks. These deficiencies
            occurred because NASA had not fully assessed and mitigated risks to the network
            and had not assigned responsibility for IT security oversight to ensure the network
            was adequately protected. A security breach of a moderate- or high-impact system or
            project on this key network could severely disrupt NASA operations or result in the
            loss of sensitive data.


Computers on NASA’s Agency-wide Mission Network Could Be
  Exploited from the Internet

  NASA computers that are accessible from the Internet are prime targets for exploitation
  and thus are highly sought after by hackers. To determine the extent to which NASA’s
  Agency-wide mission network was vulnerable to a cyber attack, we first conducted a test
  to probe the network for Internet-accessible computers. 4 The test included all IP
  addresses assigned to the more than 190 IT systems and projects on this network – more
  than 176,000 in total. At the time of our test, we found that NASA’s Agency-wide
  mission network had 54 Internet-accessible computer servers associated with 8 IT
  projects. These servers were associated with moderate- and high-impact NASA IT
  projects used to control spacecraft or process critical data.

  We contacted the owner of each project and found that two of the eight projects were
  scheduled for termination and were disposed of during the audit. 5 We performed
  vulnerability tests on the six remaining projects to determine if they included computers
  with high-risk vulnerabilities. Specifically, we used NESSUS®, a network vulnerability
  scanner, to test each computer for vulnerabilities such as running outdated or unpatched

  4
      We used Nmap, a widely used software program, to identify Internet-accessible computers. Nmap
      discovers what hosts (computers) are present on a network and what services (applications such as e-mail
      or file sharing) those hosts are offering.
  5
      Disposal means that all computer hardware related to the project was removed from the network and
      retired.



REPORT NO. IG-11-017                                                                                             3
                                                                                                        RESULTS



    software or offering network services that have known security weaknesses. NESSUS®
    ranks vulnerabilities as high, medium, or low based on their potential to harm the system.

    One of the IT projects we reviewed had an Internet-accessible server that was susceptible
    to a file transfer protocol (FTP) bounce attack – a highly effective form of cyber attack,
    widely known since 1998. 6 As shown in Figure 1 below, in an FTP bounce attack the
    attacker connects to and exploits a software flaw in the FTP server (1 and 3). Next, the
    attacker uses the FTP server as a middle-man to discreetly scan computers positioned
    behind the firewall for vulnerabilities (2). The scan results are relayed from the FTP
    server back through the firewall to the attacker (4), and the attacker uses the scan results
    to exploit other computers on the network, disrupt operations, or steal data.

    Figure 1: Attacker Exploits Vulnerability to Disrupt NASA Operations or Steal Data




    Table 1 shows the results of our vulnerability tests for the six NASA projects we
    evaluated. Specifically, it shows the number of Internet-accessible servers with high-risk
    vulnerabilities and the total number of servers with high-risk vulnerabilities. We also
    detected medium- and low-risk vulnerabilities and immediately provided the complete
    results of our tests to NASA IT security staff. NASA has since remediated all the high-
    risk vulnerabilities we detected. As the table shows, three of the projects and six
    computer servers had high-risk vulnerabilities that could allow an Internet-based attacker
    to take control of the computers or render them unavailable. We also found high-risk
    vulnerabilities on other computers that were part of these six projects.




    6
        File transfer protocol is a network protocol commonly used on the Internet to copy files from one
        computer to another. An FTP bounce attack exploits the FTP protocol when an attacker is able to use the
        PORT command to request access to ports indirectly through the use of the victim machine as a middle-
        man for the request.



4                                                                                       REPORT NO. IG-11-017
RESULTS




                                Table 1. Vulnerability Assessment Results
                                    Number of Internet-            Number of Servers with
                                   Accessible Servers with              High-Risk
              Project             High-Risk Vulnerabilities           Vulnerabilities
               1                               0                           2
               2                               0                           0
               3                               0                           2
               4                               2                           2
               5                               3                           5
               6                               1                           1
                        Total                  6                          12

  Once an attacker has exploited a vulnerability on an Internet-accessible computer, the
  attacker could use the compromised computer as a means to exploit vulnerabilities on
  other mission network computers. For example, had the bounce attack vulnerability been
  exploited, a cybercriminal could have significantly disrupted NASA’s space flight
  operations and stolen sensitive data.


Problems with Server Configurations Exposed Sensitive Data

  We also found that servers associated with the six projects we reviewed were not securely
  configured and, as a result, sensitive data such as encryption keys, encrypted passwords,
  and user account lists were exposed to potential attackers. These data are sensitive and
  can be used to gain unauthorized access to NASA’s Agency-wide mission network. For
  example, an attacker can use encryption keys to bypass security controls and remotely
  access a mission network server. 7 Although encrypting passwords prevents the true
  password from being disclosed in a legible form, an attacker can use one of the many
  tools available on the Internet to decipher the password through a technique called brute-
  forcing. 8 After cracking the password, the attacker can then bypass the login mechanism
  on the related server’s password-protected website and gain access to NASA’s Agency-
  wide mission network. Finally, one server we reviewed disclosed sensitive account data
  for all its authorized users. This information could be used by attackers for phishing or
  sending Agency personnel e-mails containing malicious code to their official NASA
  e-mail accounts. When the recipient accessed the e-mail, their computer and any
  sensitive data on it could be compromised.


  7
      The encryption keys are files used as part of the authentication process for tunneling into an internal
      network using a VPN (virtual private network) to remotely administer computer servers in the network.
  8
      Brute-force password cracking is a technique that involves an automated script or program that attempts
      every possible password combination or uses a dictionary of words until the encrypted password is
      discovered.



REPORT NO. IG-11-017                                                                                            5
                                                                                         RESULTS



NASA Needs to Conduct an Agency-Wide IT Security Risk
 Assessment

    Although NASA regularly conducts risk assessments of individual IT systems, the
    Agency has never completed an Agency-wide risk assessment for its portfolio of IT
    assets. Agency-wide risk assessments are important because they help ensure that all
    threats and vulnerabilities are identified and that the greatest risks are promptly
    addressed. In our judgment, the deficiencies noted above occurred because NASA
    (1) was unaware of critical risks to its Agency-wide mission network that a
    comprehensive risk assessment would have brought to light and (2) had not implemented
    an agreed-upon recommendation to establish an IT security oversight program to ensure
    that Agency mission networks were adequately protected. As a result, NASA’s Agency-
    wide mission network was vulnerable to a variety of cyber attacks with the potential for
    devastating adverse effects on the mission operations the network supports. Until NASA
    improves its IT security practices by completing a comprehensive IT security risk
    assessment and implementing our previous recommendation to establish an IT security
    oversight program, the Agency is vulnerable to computer incidents that could have a
    severe to catastrophic adverse effect on Agency assets, operations, or personnel.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To strengthen the Agency’s IT security program, we urged NASA to expedite
implementation of our May 2010 recommendation to establish an IT security oversight
program for NASA’s Agency-wide mission network. We also recommended that NASA
Mission Directorates take the following actions:

Recommendation 1. Immediately identify Internet-accessible computers on their mission
computer networks and take prompt action to mitigate identified risks.

Recommendation 2. Add as a security control continuous monitoring of their mission
computer networks for Internet-accessible computers and take prompt action to mitigate
identified risks.

    Management’s Response. The NASA CIO and Mission Directorates combined
    Recommendations 1 and 2 and stated that by September 30, 2011, the CIO will work with
    the Mission Directorates and Centers to develop a comprehensive approach to ensure that
    Internet-accessible computers on NASA’s mission networks are routinely identified,
    vulnerabilities are continually evaluated, and risks are promptly mitigated. NASA’s
    proposed corrective action is an Agency-wide solution and will include analyses of the
    root cause or causes underlying the findings in this and prior audits; identification of
    short-term steps that NASA will take to address the audit findings; identification of long-
    term initiatives to address any identified root cause; and identification of the costs and


6                                                                          REPORT NO. IG-11-017
RESULTS



  resources, tools, procedures, and oversight needed to implement the plan, along with
  specific milestones and assignments of responsibility and methods for accountability.

  Evaluation of Management’s Response. We consider the CIO and Mission Directorate
  proposed actions to be responsive to our recommendations. Further, we commend NASA
  for extending the corrective actions beyond NASA’s mission networks. The
  recommendations are resolved and will be closed upon verification that the proposed
  actions have been completed.

  The CIO also requested that we reevaluate the security of Internet-accessible computers
  on NASA’s mission networks within 1 year of the development of NASA’s remediation
  plan. We agreed and plan to perform a vulnerability assessment of NASA’s mission
  networks in October 2012 to evaluate the security status of the Agency’s Internet-
  accessible computers.

Finally, we recommended that NASA’s Chief Information Officer in conjunction with the
Mission Directorates:

Recommendation 3. Conduct an Agency-wide IT security risk assessment of NASA’s
mission-related networks and systems in accordance with Federal guidelines and industry
best practices.

  Management’s Response. The CIO and Mission Directorates concurred with our
  recommendation, stating that NASA will develop and implement a strategy for
  conducting such a risk assessment with the goals of (1) providing an overall view of the
  Agency’s information security risk posture and effectiveness of ongoing information
  security initiatives, particularly on NASA’s mission-related networks and systems, and
  (2) producing actionable recommendations for improving information security, prioritized
  by level of risk to the Agency, by August 31, 2011.

  Evaluation of Management’s Response. We consider the proposed actions to be
  responsive to our recommendation. Therefore, the recommendation is resolved and will
  be closed upon verification that the proposed actions have been completed.




REPORT NO. IG-11-017                                                                         7
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed our audit from July through February 2011 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform our work to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  To evaluate processes NASA used to control the flow of network traffic between the
  Internet and systems on NASA’s Agency-wide mission network, we inspected
  configurations of the firewalls and network gears that control network traffic between the
  Internet and agency-wide mission network.

  To identify Internet-accessible servers on 100 percent of the Agency-wide mission
  network, we used Nmap, a widely used software program, that can be used to discover IT
  assets that are accessible from the Internet. Based on the results of Nmap scans, we
  identified eight mission projects (two of which were decommissioned prior to the
  completion of our audit fieldwork) that had computer servers that were accessible from
  the Internet. We selected these projects for detailed review.

  Specifically, we assessed whether NASA has effective processes in place to
     •   protect internal IT assets from external threats,
     •   resume post-disaster operations, and
     •   identify and remediate technical vulnerabilities.

  We interviewed NASA and contractor staff responsible for the different areas for each
  project reviewed. We evaluated processes, controls, and tools they used to secure their IT
  mission assets and mitigate risk. We conducted vulnerability assessments on each of the
  six IT projects identified to assess NASA’s ability to mitigate technical vulnerabilities.
  Additionally, we inspected and validated the configurations of the devices that control the
  flow of network traffic between the Internet and NASA’s mission projects against
  NASA’s recommended configurations.

  To evaluate processes NASA used for contingency planning for the Agency-wide mission
  network, we assessed whether there are effective processes in place to not only restore the
  network following a disruption but also to maintain network operations throughout the
  occurrence of a disaster. We also developed questionnaires to interview NASA and


REPORT NO. IG-11-017                                                                            9
                                                                                      APPENDIX A



     contractor staff responsible for the restoration of the Agency-wide mission network. We
     inspected the contingency plans and contingency plan tests for the Agency-wide mission
     network.

     Use of Computer-Processed Data. We relied on data produced from a software
     program to perform discovery scans on the Agency-wide mission network. We used
     Nmap, a widely accepted open source port scanner, to determine what hosts (computers)
     are active and which ports on these computers are open or may be open and available on a
     given network and what services and applications those hosts are offering. We validated
     the data produced by Nmap by manually connecting to the hosts identified by Nmap as
     open.

     We also relied on data produced from a software program to perform vulnerability tests
     on samples of mission projects connected to the Agency-wide mission network. We used
     NESSUS®, a commercial network-based vulnerability scanner, to test computers for
     technical vulnerabilities. We did not validate the data produced by NESSUS® because
     NESSUS® is widely accepted as a reliable source for providing information related to the
     presence of technical vulnerabilities in information systems.


Review of Internal Controls

     We reviewed internal controls related to the flow of network traffic between the Internet
     and systems on NASA’s Agency-wide mission network and contingency planning audit
     objectives. These included determining whether NASA has policies and procedures in
     place for performing risk assessments, configuration and vulnerability management, and
     contingency planning.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the Government
     Accountability Office (GAO) have issued two reports of particular relevance to the
     subject of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY11 (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “Review of the Information Technology Security of [a NASA Computer Network]”
     (IG-10-013, May 13, 2010).




10                                                                         REPORT NO. IG-11-017
APPENDIX A



  Government Accountability Office

  “NASA Needs to Remedy Vulnerabilities in Key Networks” (GAO-10-4, October 15,
  2009)




REPORT NO. IG-11-017                                                              11
                       APPENDIX B




     MANAGEMENT COMMENTS




12            REPORT NO. IG-11-017
APPENDIX B




REPORT NO. IG-11-017   13
              APPENDIX B




14   REPORT NO. IG-11-017
APPENDIX B




REPORT NO. IG-11-017   15
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer
     Associate Administrator Aeronautics Research Mission Directorate
     Associate Administrator Science Mission Directorate
     Associate Administrator Exploration Systems Mission Directorate
     Associate Administrator Space Operations Mission Directorate

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




16                                                                      REPORT NO. IG-11-017
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Jefferson Gilkeson, Project Manager
   Eric Jeanmaire, Auditor
   Morgan Reynolds, Auditor




REPORT NO. IG-11-017                                        17
                                                                                     MARCH 28, 2011
                                                                       REPORT No. IG-11-017




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations
and Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
